                          U.S. Department of Agriculture

                             Office of Inspector General
                                       Southeast Region




                Audit Report

Food Safety and Inspection Service – State Meat
      and Poultry Inspection Programs




                                 Report No. 24005-1-AT
                                      September 2006
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington, D.C. 20250




September 19, 2006


REPLY TO
ATTN OF:      24005-1-At

TO:           Dr. Barbara J. Masters
              Administrator
              Food Safety and Inspection Service

ATTN:         William C. Smith
              Assistant Administrator
              Office of Program Evaluation, Enforcement and Review

FROM:         Robert W. Young /S/
              Assistant Inspector General
                for Audit

SUBJECT:      Food Safety and Inspection Service -
              State Meat and Poultry Inspection Programs


This report presents the results of our audit of the Food Safety and Inspection Service - State
Meat and Poultry Inspection Program. Your written response to the official draft report, dated
August 22, 2006, is included as exhibit D with excerpts of the response and the Office of
Inspector General (OIG) position incorporated into the Findings and Recommendations section
of the report, where applicable.

We accept management decision for Recommendations 1, 2, 3, 4, 9, and 10. We can accept
management decision on Recommendations 5, 6, 7, 8, 11, and 12 once we have been provided
the information as outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframe for implementing such
action on those recommendations for which a management decision has not been reached. Please
note that the regulation requires management decision to be reached on all recommendations
within a maximum of 6 months from report issuance. Follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer.

We appreciate your timely response and the cooperation and assistance provided to our
Executive Summary
Food Safety and Inspection Service – State Meat and Poultry Inspection Programs
(Audit No. 24005-1-AT)

Results in Brief                      As the agency of the U.S. Department of Agriculture charged with ensuring
                                      that the nation’s commercial supply of meat and poultry products is safe,
                                      wholesome, and accurately labeled and packaged, the Food Safety and
                                      Inspection Service (FSIS) inspects all meat and poultry products sold in
                                      interstate and foreign commerce. It also enters into cooperative agreements
                                      with States. These agreements set forth the terms and conditions by which
                                      FSIS will cooperate and assist States to ensure that meat and poultry products
                                      sold intrastate meet inspection standards “at least equal to” Federal laws and
                                      regulations. 1 In 2003, FSIS devised a new comprehensive review system for
                                      State Meat and Poultry Inspection (MPI) programs; shortly thereafter, the
                                      agency started the process of re-evaluating all 28 State MPI programs
                                      according to this new directive. The other 22 States chose not to implement a
                                      State MPI program—all establishments within these States are federally
                                      inspected. We initiated this review to evaluate FSIS’ internal controls and
                                      procedures over State MPI programs.

                                      We found that FSIS’ initial progress in re-evaluating all State MPI programs
                                      was slow and that over a 21-month period (from October 2003 through
                                      June 2005), the agency had conducted only eight initial onsite reviews of
                                      State MPI programs. This occurred because the agency had not established a
                                      firm and realistic plan for completing the reviews in a timely manner with its
                                      available resources. We concluded that FSIS needs to complete this process,
                                      especially since FSIS deferred making a determination that four 2 of the eight
                                      State MPI programs initially reviewed were “at least equal to” Federal laws
                                      and regulations pending correction action submissions. The agency is
                                      working with these four States on corrective actions, but only by completing
                                      its onsite reviews can FSIS obtain assurance that all State MPI programs are
                                      “at least equal to” Federal laws and regulations. FSIS initiated reviews of
                                      16 State MPI programs between July 2005 and April 2006. FSIS’ initial
                                      conclusion was that 7 of 12 of these programs were deferred pending
                                      corrective actions required by the State programs (conclusions on 4 reviews
                                      conducted in April 2006 are pending). According to FSIS officials, the
                                      agency plans to complete the final four reviews prior to the end of fiscal year
                                      (FY) 2006.

                                      For those State MPI programs that have been reviewed, we found that
                                      although FSIS has a manual with detailed procedures and checklists for

1
  Those Federal laws and regulations are set forth in the Federal Meat Inspection Act and in the Poultry Products Inspection Act, as well as the
implementing regulations.
2
  Of the four reviews, FSIS initially found one State “does not support at least equal to,” one had “significant concerns,” and two were deferred while the
States took corrective action.

USDA/OIG-A/24005-1-AT                                                                                                                            Page i
                                      conducting onsite reviews, 3 how the agency arrived at its decisions regarding
                                      the acceptability of State MPI programs are not clearly documented in FSIS’
                                      summary reports. In other words, while the manual establishes clear
                                      guidelines for identifying problems in State MPI programs, how those
                                      problems are weighed in the determination and documented in the summary
                                      report was less clear. This condition was caused by the agency’s decision to
                                      eliminate specific decision-making criteria from its comprehensive review
                                      methodology. FSIS rendered comprehensive review determinations of “at
                                      least equal to” Federal laws and regulations to three States and a
                                      comprehensive review determination of “significant concerns with program”
                                      to one State even though sampled establishments in each State contained
                                      similar Hazard Analysis and Critical Control Points and Sanitation Standard
                                      Operating Procedure deficiencies. The summary reports that FSIS issues for
                                      these determinations do not clearly indicate how different deficiencies are
                                      weighed, and how they contribute to final determinations. Without being
                                      clearly expressed or detailing objective grounds for making final
                                      determinations, conclusions of “at least equal to” or “not at least equal to”
                                      Federal laws and regulations are incompletely documented and may be
                                      inappropriate.

                                      FSIS’ comprehensive reviews did not adequately analyze State staffing
                                      levels, determine whether one of the two States we visited had fully
                                      implemented systems to evaluate employee performance, and assess quality
                                      assurance of laboratories used by State MPI programs. Though FSIS
                                      routinely gathers data regarding State MPI programs’ staff, it does not use
                                      this data to determine if staffing levels are appropriate for carrying out State
                                      inspection activities. As a result, some State programs may not have the
                                      workforce needed to perform essential functions or to provide assurance that
                                      their inspection program is “at least equal to” Federal laws and regulations.
                                      FSIS had not determined whether one of two States we visited had fully
                                      implemented a management system for evaluating employee performance.
                                      Finally, FSIS review manual requirements state that the laboratories used by
                                      State MPI programs to test meat and poultry products are expected to operate
                                      in a manner that produces accurate, reliable, and reproducible results. FSIS,
                                      however, did not include tests in its comprehensive review process to
                                      determine whether quality assurance procedures were in place at these
                                      laboratories. FSIS officials stated that these tests are outside of the scope of
                                      the Federal Meat Inspection Act and the Poultry Products Inspection Act.
                                      However, since pathogen reduction is an integral part of FSIS’ own
                                      inspection program, we concluded that any State program can not be
                                      considered “at least equal to” Federal laws and regulations without taking this
                                      vital component into account.



3
    FSIS Manual for State Meat and Poultry Inspection Program Reviews, July 2005.

USDA/OIG-A/24005-1-AT                                                                                         Page ii
                   In terms of FSIS’ oversight of the fiscal accountability of State MPI
                   programs, we found three conditions. First, periodic onsite fiscal reviews of
                   each State MPI program should be performed once every 3 years; however, at
                   least 4 years have elapsed since FSIS conducted onsite fiscal reviews of
                   four States. Second, FSIS has not always followed its policy of reviewing
                   new State MPI programs after their first year of operations. Despite the fact
                   that this review benefits both the State and FSIS by providing early assurance
                   that new programs are operating as intended, we found that two of four new
                   programs had not been reviewed in a timely manner. Third, FSIS did not
                   timely implement its yearend grant closeout procedures to ensure that State
                   MPI programs promptly returned excess Federal funds. Because these
                   closeouts were not performed timely, the Texas MPI program was able to
                   retain excess funds it had not spent for 7 of the 8 FYs between 1997 and
                   2004. These funds, which for individual years ranged between $52,000 and
                   $298,000, were retained by the State for periods of up to 43 months. To date,
                   FSIS has not demanded repayment of $260,201 still outstanding from
                   FY 2004. By holding Federal funds longer than necessary, the State of Texas
                   did not comply with the Cash Management Improvement Act (CMIA),
                   exercised improper stewardship of Federal resources, and caused the U.S.
                   Treasury unnecessary cumulative interest costs of approximately $100,000.

                   We concluded that FSIS should take steps to strengthen its oversight of State
                   MPI programs, including developing a plan to complete the remaining onsite
                   reviews. The agency should also provide more detailed guidelines for
                   determining if a State MPI program is “at least equal to” Federal laws and
                   regulations, for reviewing staffing performance and laboratory quality
                   assurance, and for improving its controls over State MPI programs to ensure
                   costs claimed are allowable and properly accounted for.

Recommendations
in Brief           FSIS should complete the remaining initial onsite inspections, and thereafter
                   maintain the triennial onsite comprehensive reviews of each State’s MPI
                   program. FSIS should establish clear and uniform criteria for (1) determining
                   how identified deficiencies in meat processing establishments affect State
                   acceptability determinations, (2) analyzing the staffing requirements of State
                   MPI programs, (3) determining whether State MPI programs have fully
                   implemented employee performance systems, and (4) confirming that
                   laboratories adhere to standards at “least equal to” Federal requirements.

                   Also, FSIS should develop and implement a plan to eliminate the current
                   backlog of onsite fiscal reviews, implement management controls to
                   consistently and timely perform yearend grant closeouts of State MPI
                   programs, and seek prompt recovery of $260,201 in excess of program
                   expenditures currently held by the Texas MPI program.



USDA/OIG-A/24005-1-AT                                                                    Page iii
Agency Response    In its August 22, 2006, written response to our draft report, FSIS addressed
                   each recommendation with a positive response. However, FSIS also provided
                   clarification and/or disagreements with some statements in the report.
                   Regarding Finding 2, FSIS states the report implies that the number of
                   deficiencies in a State’s establishments is the primary determinant as to
                   whether the State’s inspection program is “at least equal to” the Federal
                   program and that all Hazard Analysis and Critical Control Points (HACCP)
                   and/or Sanitation Standard Operating Procedures (SSOP) deficiencies have
                   the same risk for endangering public health. FSIS made additional comments
                   expressing disagreement with some contents of our finding regarding staffing
                   requirements of State MPI programs and employee performance systems.
                   Finally, FSIS indicates the report incorrectly states that since 1997 FSIS has
                   recovered excess funds from those allocated to Texas only when it conducts
                   its onsite triennial fiscal review of the Texas MPI program. Our comments on
                   these items are specifically addressed in the OIG Position section of this
                   report. FSIS’ entire response is included as exhibit D of this report.

OIG Position       FSIS’ response to the recommendations in our draft report was positive and
                   we accept management decision for Recommendations 1, 2, 3, 4, 9, and 10.
                   We can accept management decision for the remaining recommendations
                   once FSIS completes actions noted in the OIG Position section of each
                   recommendation in the report. We disagree with FSIS’ specific comments to
                   some of the findings in its written response to the draft report, as follows.

                   Regarding Finding 2, we reported that even though FSIS found similar
                   deficiencies in States, its determinations were different. We agree that it was
                   not the sheer number of deficiencies in a State’s plants, but rather the
                   underlying nature of HACCP and SSOP noncompliances. However, the
                   review reports did not contain adequate documentation to identify the
                   seriousness and impact of the deficiencies.

                   We disagree with FSIS’ comments regarding staffing requirements of State
                   MPI programs and employee performance systems for two reasons. First of
                   all, the statement FSIS quoted had been removed from the draft report to
                   which FSIS responded. FSIS’ positive response to Recommendation 5 of the
                   report to improve the review of State staffing indicates that corrective action
                   was appropriate. Second, our report never states or even implies that State
                   programs are required to have employee performance systems identical to
                   those in the Federal program. FSIS indicated that Missouri uses another
                   Federal tool to address employee performance through the use of their
                   documentation on the In-Plant Performance System Reviews (IPPS) reviews
                   that are conducted in each establishment every quarter. However, examples
                   of completed IPPS forms that were provided to us disclosed that these
                   reviews were strictly of the plant’s performance, not the State inspector
                   performance. This information was conveyed to FSIS management at a

USDA/OIG-A/24005-1-AT                                                                     Page iv
                   meeting subsequent to our exit discussion and no further documents or details
                   were provided since that time.

                   Although FSIS stated it had recovered excess funds from Texas during the
                   yearend grant closeout process in FY 1999, we were not provided any
                   support that excess funds were returned by Texas at that time. In April 2000,
                   FSIS conducted their onsite triennial review for FYs 1997, 1998, and 1999,
                   which showed that the costs claimed by Texas were proper. FSIS did not
                   discover that Texas’ cash drawdowns exceeded the Federal share of costs for
                   all three fiscal years and request repayment of the excess funds until April
                   2001.




USDA/OIG-A/24005-1-AT                                                                    Page v
Abbreviations Used in This Report

CCP            Critical Control Point
CMIA           Cash Management Improvement Act
FMD            Financial Management Division
FMIA           Federal Meat Inspection Act
FRAB           Financial Review and Accountability Branch
FSIS           Food Safety Inspection Service
FTBPTBU        Funds To Be Put To Better Use
FY             Fiscal Year
HACCP          Hazard Analysis and Critical Control Points
IPPS           In-Plant Performance System Reviews
MPI            Meat and Poultry Inspection
OIG            Office of Inspector General
PPIA           Poultry Products Inspection Act
SPP            State Performance Plans
SPS            Sanitation Performance Standards
SSOP           Sanitation Standard Operating Procedures




USDA/OIG-A/24005-1-AT                                        Page vi
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 – FSIS Comprehensive Review Process Needs Strengthening ...................................... 3

        Finding 1    FSIS Should Complete Its Initial Comprehensive Reviews.................................... 3
                          Recommendation 1 .......................................................................................... 6
                          Recommendation 2 .......................................................................................... 6
      Finding 2      FSIS’ State MPI Determinations Not Clearly Documented or Supported.............. 6
                          Recommendation 3 ........................................................................................ 11
                          Recommendation 4 ........................................................................................ 12
      Finding 3      FSIS Should More Effectively Review Staffing Requirements,
                     Performance, and Laboratory Quality Assurance ................................................. 12
                          Recommendation 5 ........................................................................................ 16
                          Recommendation 6 ........................................................................................ 17
                          Recommendation 7 ........................................................................................ 17
                          Recommendation 8 ........................................................................................ 18
    Section 2 – Financial Reviews Were Not Always Timely ............................................................. 20

        Finding 4             FSIS Did Not Timely Perform Fiscal Reviews of State MPI Programs ............... 20
                                  Recommendation 9 ........................................................................................ 23
        Finding 5             FSIS Should Strengthen Controls Over Grant Closeout Procedures to
                              Ensure That States Adhere to the Federal CMIA.................................................. 23
                                  Recommendation 10 ...................................................................................... 25
                                  Recommendation 11 ...................................................................................... 26
                                  Recommendation 12 ...................................................................................... 26

Scope and Methodology........................................................................................................................ 27

Exhibit A – Summary of Monetary Results ....................................................................................... 29

Exhibit B – Locations Visited............................................................................................................... 30

Exhibit C – Categories/Criteria Designating Frequency of FSIS Comprehensive Review............ 31

Exhibit D – Agency Response .............................................................................................................. 33




USDA/OIG-A/24005-1-AT                                                                                                                   Page vii
Background and Objectives
Background                              The mission of the Food Safety Inspection Service (FSIS) is to ensure that the
                                        nation’s commercial supply of meat and poultry products is safe, wholesome,
                                        and accurately labeled and packaged, as required by the Federal Meat
                                        Inspection Act (FMIA) and the Poultry Products Inspection Act (PPIA). 4
                                        Under these acts, FSIS inspects all meat and poultry products sold in
                                        interstate and foreign commerce, including imported products.

                                        In addition to its Federal inspection activities, FSIS enters into cooperative
                                        agreements that set forth the terms and conditions by which FSIS will
                                        cooperate with, and provide assistance to, States carrying out a meat or
                                        poultry inspection program, provided they enact and enforce inspection laws
                                        and requirements which are “at least equal to” those of the Federal inspection
                                        program. FSIS defines “at least equal to” as meaning that the food safety and
                                        other consumer protection measures implemented by a State program address
                                        the same issues addressed by the Federal program, and that the results of the
                                        State’s approach are at least as effective as those of the Federal program. 5
                                        The State program need not take the exact same action as the Federal
                                        program so long as it arrives at the “at least equal to” standard.

                                        States with a cooperative agreement for meat and poultry inspection
                                        programs inspect establishments involved only in the intrastate movement of
                                        meat and poultry products. Currently, 28 States have cooperative agreements
                                        with FSIS. The other States chose not to implement a State Meat and Poultry
                                        Inspection (MPI) program and all establishments within these States are
                                        federally inspected. For MPI programs meeting the requirement of being “at
                                        least equal to” Federal law and regulations, FSIS contributions to the State
                                        shall not exceed 50 percent of the State’s operating funds (Federal share)
                                        including training and technical assistance. During fiscal year (FY) 2004, the
                                        28 State programs inspected meat and poultry products amounting to
                                        approximately 500 million pounds. In FY 2004, FSIS’ contribution to the
                                        28 State MPI programs amounted to approximately $43.5 million.

                                        State meat and poultry inspections are governed by the Hazard Analysis and
                                        Critical Control Points (HACCP) program, the Sanitation Standard Operating
                                        Procedures (SSOP), and the Sanitation Performance Standards (SPS).
                                        Implemented in 1998, HACCP aims to reduce hazards in the food supply by
                                        stressing the prevention of contamination before it occurs. Instead of
                                        requiring inspectors to constantly monitor meat and poultry processing
                                        establishments, HACCP requires plants to monitor their own production.
                                        FSIS is still, however, responsible for oversight of the State’s MPI program

4
    FMIA, 21 United States Code 661(a) (1) (2), and PPIA, 454(a) (1).
5
    These issues include provisions for ante-mortem and post mortem-inspection, re-inspection, sanitation, and recordkeeping.

USDA/OIG-A/24005-1-AT                                                                                                           Page 1
                                      to ensure that the plants have implemented an adequate HACCP plan. While
                                      HACCP ensures that meat and poultry products will be wholesome, SSOP
                                      ensures that plants maintain hygienic facilities. SSOPs, like HACCP, make
                                      processing facilities responsible for developing and implementing written
                                      procedures for documenting cleaning schedules, but inspectors verify that
                                      these procedures are carried out. Finally, SPS addresses conditions within
                                      and around the establishment (e.g., ventilation, lighting, facility and
                                      equipment construction, and the maintenance of the grounds). Together, these
                                      three standards provide comprehensive guidelines for ensuring the quality of
                                      the nation’s supply of commercial meat and poultry.

                                      Due to the 2002 Farm Bill 6 and increased emphasis on reviewing all FSIS
                                      programs and activities, the agency began a new comprehensive review of
                                      State MPI programs in 2003. FSIS reorganized and adopted a two-part
                                      methodology for conducting comprehensive reviews of State MPI programs
                                      consisting of the State’s self-assessment followed by an onsite review. The
                                      onsite review was divided into eight components: inspection, product
                                      sampling, staffing and training, humane handling, consumer protection,
                                      enforcement, civil rights, and funding and financial accountability. With this
                                      new methodology in place, FSIS began the process of conducting
                                      comprehensive reviews of all 28 State MPI programs.

Objectives                            Our objective was to evaluate FSIS’ management controls and procedures to
                                      ensure that State MPI programs are “at least equal to” Federal laws and
                                      regulations.




6
  The 2002 Farm Bill conference report language is as follows: “ * * * when the Secretary of Agriculture submits the annual report to Congress on the
activities of the Food Safety Inspection Service, the Secretary should include a full review of State inspection systems. This review should also offer
guidance about changes the State systems might expect should the statutory prohibition against the interstate shipment of state inspected product be
removed.”

USDA/OIG-A/24005-1-AT                                                                                                                            Page 2
Findings and Recommendations
Section 1 – FSIS Comprehensive Review Process Needs Strengthening

                                      FSIS’ comprehensive review process should be strengthened to provide
                                      greater assurance that State MPI programs are “at least equal to” Federal laws
                                      and regulations. In 2003, FSIS recognized the need to update and strengthen
                                      its policies and procedures for reviewing State MPI programs. As a result,
                                      FSIS devised a new comprehensive review of State MPI programs with the
                                      intent of improving its oversight. We found, however, that this new
                                      comprehensive review needs to be improved in three areas:

                                      •     FSIS has not completed comprehensive reviews of the 28 existing State
                                            MPI programs according to its revised directives. In 11 of the 24 7 reviews
                                            performed through April 2006, FSIS’ initial determinations were deferred
                                            to conclude that the programs were “at least equal to” Federal laws and
                                            regulations pending correction action submissions (conclusion on
                                            4 reviews are pending). FSIS needs to complete the remaining
                                            comprehensive reviews so that it can help non-compliant States improve
                                            their performance.

                                      •     FSIS’ comprehensive review process does not clearly summarize and
                                            report how violations in meat and poultry slaughter and processing
                                            facilities contribute to the State MPI program’s overall determination.
                                            Without establishing a clear relationship between violations and the State
                                            MPI program’s final determinations, FSIS’ determinations may be
                                            inconsistent.

                                      •     Comprehensive review procedures did not effectively address State MPI
                                            staffing requirements, determine whether State MPI programs had fully
                                            implemented employee performance systems, and confirm that quality
                                            assurance procedures in place at laboratories used for product testing
                                            were “at least equal to” Federal laws and regulations. 8




Finding 1                             FSIS Should Complete Its Initial Comprehensive Reviews

                                      In response to the 2002 Farm Bill, FSIS revised its procedures for performing
                                      comprehensive reviews of State MPI programs. The agency began reviewing
                                      the State MPI programs in October 2003 to re-certify them under the revised
                                      procedures. FSIS, however, did not establish a firm and realistic plan for
7
  Of these 11 reviews, 9 determinations were deferred, 1 determination had “significant concerns,” and 1 determination “did not support at least equal to”
Federal laws and regulations.
8
  Laboratories conducting official analysis for State programs need not be accredited under 21 Code of Federal Regulations 318.21 and 381.153, but are
required to be “at least equal to” accredited labs.

USDA/OIG-A/24005-1-AT                                                                                                                            Page 3
                                    completing the comprehensive reviews that took into account the agency’s
                                    limited resources. As of June 2005, FSIS had completed reviews for 8 of the
                                    28 State MPI programs; FSIS was not able to initially conclude that 4 of the
                                    8 programs were “at least equal to” Federal laws and regulations. After
                                    discussing this with FSIS during our fieldwork, the agency initiated reviews
                                    of 16 State MPI programs between July 2005 and April 2006. FSIS’ initial
                                    determinations for seven of these programs were deferred pending corrective
                                    action submissions from the State programs. According to FSIS officials, the
                                    agency plans to complete the review of the final four State MPI programs
                                    prior to the end of FY 2006.

                                    FSIS revised its review procedures, in response to the 2002 Farm Bill, with
                                    the goal to re-certify State MPI programs under newer, more secure
                                    guidelines. States administering MPI programs were required to provide FSIS
                                    with an initial self-assessment, accompanying forms and documentation, and
                                    certification that their program was “at least equal to” the Federal program.
                                    After the State program submitted its initial self-assessment, FSIS is to
                                    conduct its onsite review of the State program. Based on the self-assessment,
                                    onsite review and followup review, FSIS arrives at a final determination of
                                    whether State MPI programs are “at least equal to” Federal laws and
                                    regulations. After reaching conclusions on all 28 State MPI programs, FSIS
                                    plans to conduct further onsite reviews every 3 years, or as needed, based on
                                    the outcome of its initial review.

                                    The 2002 Farm Bill did not establish a timeframe within which these initial,
                                    comprehensive reviews were to be completed. Since Congress required that
                                    FSIS review State MPI programs in the 2002 Farm Bill, we concluded these
                                    reviews should be timely and provide reasonable assurance that MPI
                                    programs are “at least equal to” Federal laws and regulations.

                                    Comprehensive Onsite Reviews Not Completed

                                    We found, however, that FSIS has not completed comprehensive onsite
                                    reviews of all 28 States’ MPI programs under its revised review procedures. 9
                                    From October 2003 through June 2005, FSIS conducted only eight initial
                                    onsite reviews of State MPI programs. Before FSIS could render its final
                                    conclusion on whether all States were “at least equal to” Federal laws and
                                    regulations, FSIS had to review another 20 programs.

                                    FSIS officials explained that these reviews had been performed slowly due to
                                    limited staff resources and competing priorities. FSIS officials had
                                    announced several different plans to complete the remaining onsite reviews.
                                    In November 2004, an FSIS official informed the National Advisory
                                    Committee on MPI of FSIS’ plan to conduct eight onsite reviews per year.
9
  According to FSIS, the agency conducted onsite reviews of State MPI programs regularly before the revised procedures were implemented. The
frequency of the reviews depended on the severity of FSIS’ prior findings.

USDA/OIG-A/24005-1-AT                                                                                                                     Page 4
                                      However, in January 2005, FSIS officials informed the Office of Inspector
                                      General (OIG) of their plan to perform 16 State comprehensive reviews
                                      during calendar year 2005. As of June 2005, FSIS had conducted only four
                                      onsite reviews in 2005. At the same time, a lead FSIS review official stated
                                      that FSIS would conduct eight more reviews this year beginning July 2005.

                                      During fieldwork we shared our concern with FSIS that comprehensive
                                      onsite reviews of State MPI programs were not being completed. FSIS
                                      initiated reviews of 16 State MPI programs between July 2005 and
                                      April 2006. According to FSIS officials, the agency plans to complete the
                                      review of the final four State MPI programs prior to the end of FY 2006.
                                      FSIS needs to complete the remaining reviews and implement controls to
                                      ensure each State MPI program is reviewed every 3 years or as needed.

                                      FSIS Deferred Making Determinations That State MPI Programs Were
                                      “At Least Equal To” Federal Laws and Regulations

                                      FSIS’ need to complete these reviews in a timely manner is all the more
                                      urgent because the eight reviews it had completed through June 2005
                                      indicated that the rate of noncompliance with its new procedures is high.
                                      Fifty percent of the State MPI programs reviewed—programs in Missouri,
                                      Wisconsin, Delaware, and Minnesota—were not initially determined to be “at
                                      least equal to” Federal laws and regulations. FSIS initially found Missouri
                                      “does not support at least equal to” Federal laws and regulations, Wisconsin
                                      was found to have “significant concerns,” and Minnesota’s and Delaware’s
                                      initial determinations were “deferred” while the States took corrective action.

                                      In October 2003, FSIS performed an onsite review of Missouri’s MPI
                                      program which determined that the program “does not support at least equal
                                      to” Federal laws and regulations due to widespread deficiencies. 10 In
                                      January 2004, State of Missouri agriculture officials provided FSIS with a
                                      corrective action plan detailing their actions to address these problems; at that
                                      point FSIS believed Missouri’s corrective action was sufficient (see Finding
                                      3). In March 2004, FSIS was able to amend its determination for Missouri to
                                      conclude that the State’s program “supports at least equal to” Federal laws
                                      and regulations.

                                      FSIS has also been working to help the other three States that received
                                      determinations other than “at least equal to” Federal laws and regulations on
                                      their initial comprehensive onsite review. Wisconsin agriculture officials
                                      resolved identified deficiencies through a corrective action plan. While our
                                      fieldwork was underway, FSIS continued to work with the States of
                                      Delaware and Minnesota to resolve their deficiencies. FSIS determined that a

10
   FSIS’ onsite review of Missouri’s MPI program resulted in a determination of “does not support at least equal to” Federal laws and regulations for the
inspection, staffing, and enforcement components due to numerous deficiencies. For more on the staffing problem, see Finding 3.

USDA/OIG-A/24005-1-AT                                                                                                                            Page 5
                   followup visit to the State of Minnesota was warranted and conducted that
                   visit in August 2005.

                   From July 2005 to April 2006, FSIS initiated reviews of 16 State MPI
                   programs. FSIS’ initial determinations were deferred for seven of these
                   programs pending corrective actions required by the State programs.

Recommendation 1

                   Ensure that the remaining initial comprehensive onsite reviews of State MPI
                   programs are completed.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                              FSIS will complete the onsite verification reviews of all
                              28 State MPI programs prior to the end of FY 2006.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 2

                   Establish controls that will ensure the agency meets the requirements to
                   review each State’s MPI program every 3 years or as needed.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                              FSIS will review annual self-assessment submissions
                              from all 28 States and implement risk-based onsite
                              reviews ensuring at least one onsite review every
                              3 years. The timeline for this process is detailed in the
                              FSIS Manual for State Meat and Poultry Inspection
                              Program Reviews.

                   OIG Position. We accept management decision for this recommendation.




Finding 2          FSIS’ State MPI Determinations Not Clearly Documented or
                   Supported

                   FSIS’ decisions regarding whether State MPI programs are “at least equal to”
                   Federal laws and regulations are not clearly documented in the agency’s
                   summary reports. Although FSIS has specific criteria for evaluating the
                   components of State MPI programs, the relationship between violations and
                   the final determination is not clearly explained. When the agency revised its

USDA/OIG-A/24005-1-AT                                                                     Page 6
                                      directives for inspecting these programs, an agency official said FSIS
                                      eliminated specific criteria for weighing violations and rendering decisions in
                                      order to avoid being overly prescriptive and to allow reviewers to use their
                                      discretion. Officials reviewing these programs thus lack clear, objective, and
                                      uniform guidelines for weighing the effect of establishment deficiencies on
                                      State MPI program findings and for documenting the relationship between
                                      those violations and the final determination. FSIS rendered comprehensive
                                      review determinations of “at least equal to” Federal laws and regulations to
                                      three States, and a comprehensive review finding of “significant concerns” to
                                      one State even though sampled establishments in each State contained similar
                                      HACCP and SSOP deficiencies. This inconsistency was not clearly justified
                                      by the information documented in the FSIS’ summary reports.

                                      FSIS has a clear responsibility for setting a national standard for State MPI
                                      programs. 11 As part of its responsibility for ensuring the adequacy of State
                                      MPI programs, FSIS conducts comprehensive reviews to determine whether
                                      States are “at least equal to” Federal laws and regulations.12 Directives define
                                      “at least equal to” as meaning that the food safety and other consumer
                                      protection measures implemented by a State program address the same issues
                                      as the Federal program, and the results of the State’s approach are to be at
                                      least as effective as those of the Federal program.

                                      FSIS officials review various components of State MPI programs. The
                                      “inspection” component involves visiting and assessing meat and poultry
                                      establishments. Review officials verify onsite that the State program is
                                      functioning as designed and that the State is ensuring that establishments
                                      operate according to HACCP and SSOP. 13 HACCP provides a framework for
                                      meat and processing establishments to establish science-based controls that
                                      can be validated as effective in eliminating, preventing, or reducing to an
                                      acceptable level the food safety hazards that are reasonably likely to occur in
                                      an official establishment’s particular production process. SSOPs include
                                      procedures an official establishment will conduct daily, before and during
                                      operation, sufficient to prevent direct contamination or adulteration of
                                      products. 14 The nature, extent, and degree of deficiencies should be weighed
                                      by objective criteria when reviewers evaluate States’ MPI programs, and the
                                      relationship between deficiencies and the final determination should be
                                      clearly justified and documented in the summary report.

                                      We found, however, that FSIS’ summary reports do not fully document how
                                      officials’ findings at establishments affect the outcome of comprehensive
                                      onsite reviews. Without a full explanation of the relationship between


11
   “Fulfilling the Vision, Initiatives in Protecting Public Health.” U.S. Department of Agriculture/FSIS, July 2004.
12
   FSIS Directive 5720.2, revision 3, dated November 16, 2004.
13
   FSIS Directive 5720.2, revision 3, dated November 16, 2004.
14
   For a fuller explanation of HACCP and SSOP, see the Background.

USDA/OIG-A/24005-1-AT                                                                                                  Page 7
                                      identified deficiencies and the final determinations, FSIS’ decisions were
                                      inconsistent.

                                      Review Determinations Not Fully Documented

                                      Because it did not fully justify its determinations in its summary reports,
                                      FSIS judged State MPI programs in ways that were inconsistent. FSIS
                                      rendered comprehensive review determinations of “at least equal to” Federal
                                      laws and regulations to three States—Mississippi, Kansas, and North
                                      Dakota—even though the majority of sampled establishments were cited for
                                      recurring HACCP and SSOP deficiencies within the inspection component.
                                      Although Wisconsin had similar categorized deficiencies, FSIS rendered a
                                      determination of “significant concerns” for both the inspection component
                                      and the overall State determination. In its summary review reports, FSIS did
                                      not explain why Wisconsin was treated differently than the other States.
                                      Although it is true that “similar” HACCP and SSOP categorized deficiencies
                                      may pose different risks to public health and necessitate a different response
                                      from FSIS, the agency needs to explain, in its summary report, how and why
                                      it arrives at its decisions.


                                                                                           Table 1
                                                                              No. of Sampled            Percentage of
                                                    No. of Sampled            Establishments           Establishments
                                     State                                                                                             Decision
                                                    Establishments                 With                     With
                                                                               Deficiencies              Deficiencies
                                                                                                                                “At Least Equal to”
                                                                                                                                Federal Laws and
                                 Mississippi                 11                       11                  100 percent           regulations
                                                                                                                                “At Least Equal to”
                                                                                                                                Federal Laws and
                                   Kansas                    13                       10                   77 percent           regulations
                                                                                                                                “At Least Equal to”
                                   North                                                                                        Federal Laws and
                                   Dakota                    10                       10                  100 percent           regulations
                                                                                                                                Significant
                                 Wisconsin                   14                       12                   86 percent           Concerns



                                      In Mississippi, FSIS randomly selected and visited a total of
                                      11 establishments 15 during its October 2003 onsite review. All establishments
                                      visited were cited for HACCP noncompliances, especially in the areas of
                                      HACCP recordkeeping 16 and agency verification. 17 Additional examples of
                                      the noncompliances identified included: soot-like material found on several
15
   These are processing/slaughter or processing establishments, excluding custom exempt establishments.
16
   Recordkeeping is the only written evidence documenting the operation of HACCP system critical control points (CCP) and any corrective actions taken
to ensure product was produced in a safe manner.
17
   Verification involves the scientific and technical process for determining that CCPs and associated limits are adequate to ensure that the entire HACCP
system functions properly and that there is a documented periodic reassessment of the HACCP plan.

USDA/OIG-A/24005-1-AT                                                                                                                            Page 8
                                        swine carcasses in cooler; lack of monitoring CCP cooking temperatures;
                                        SSOPs and daily monitoring were not performed; and cutting boards (deeply
                                        scored and stained) contained product residues from previous days’
                                        operations. Despite these problems, FSIS assigned Mississippi an “at least
                                        equal to” finding for the inspection component and overall State conclusion.
                                        Since it received an “at least equal to” finding, Mississippi also was not
                                        required to provide FSIS with a corrective action plan.

                                        In North Dakota, FSIS randomly selected and visited a total of
                                        10 establishments during its January 2005 onsite review. All of the
                                        establishments visited were cited for HACCP noncompliances. In our review
                                        of North Dakota’s establishment checklists we found HACCP
                                        noncompliances similar to those found in Mississippi. Again, despite these
                                        problems, FSIS assigned North Dakota a finding of “at least equal to” Federal
                                        laws and regulations.

                                        In Wisconsin, however, FSIS assigned the State a finding of “significant
                                        concerns” even though a lower percentage of its plants were cited with
                                        similar noncompliances to both Mississippi and North Dakota. FSIS
                                        randomly selected 14 establishments in Wisconsin, 12 of which were cited
                                        for HACCP noncompliances. Our analysis of FSIS’ establishment review
                                        checklists disclosed that there were a significant number of noncompliances
                                        in the areas of HACCP recordkeeping and agency verification similar to
                                        those found in Mississippi. Some additional noncompliances included:
                                        product residue from previous days’ operations left on contact surfaces; lack
                                        of documentation of preshipment review; and insects observed in processing
                                        area and on product. Yet, FSIS initially rendered Wisconsin a determination
                                        of “significant concerns” for the inspection component and overall State
                                        conclusion. Even though a higher percentage of establishments in Wisconsin
                                        complied with Federal laws and regulations than in Mississippi and North
                                        Dakota, Wisconsin was initially judged as having “significant concerns”
                                        while the other two States were judged “at least equal to” Federal laws and
                                        regulations. FSIS did not provide full documentation in its summary reports
                                        to explain the apparent inconsistency of this decision. FSIS officials advised
                                        that it was not the sheer number of deficiencies in a State’s plants to be the
                                        primary determinate as to whether the State’s inspection program is “at least
                                        equal to” the Federal program, but rather the underlying nature of
                                        noncompliances. We learned that before the 2003 revision of its directive,
                                        FSIS had such procedures in place (see exhibit C), but removed them in order
                                        to avoid being overly prescriptive. 18

                                        When we presented this issue to FSIS, one FSIS review official stated that
                                        when making determinations, the agency considers whether noncompliances
                                        will affect food safety. The official also stated that the agency considers the

18
     (Revision 2) of FSIS Directive 5720.2.

USDA/OIG-A/24005-1-AT                                                                                           Page 9
                                    volume of noncompliances involved and how noncompliances affect
                                    consumers. Another FSIS review official stated that finding noncompliances
                                    at a State’s establishments does not necessarily mean that the State MPI
                                    program is not “at least equal to” Federal laws and regulations. We agree that
                                    it was not the sheer number of deficiencies in a State’s plants to be the
                                    primary determinate as to whether the State’s inspection program is “at least
                                    equal to” the Federal program, but rather the underlying nature of HACCP
                                    and SSOP noncompliances. Finally, with regard to the lack of HACCP and
                                    SSOP recordkeeping, each occurrence may represent a different risk to food
                                    safety from significant to minor; however, we believe the condition provides
                                    no assurance that various functions were performed and precludes knowing
                                    whether State-inspected establishments had indeed increased the risk to food
                                    safety, and thus were not “at least equal to” the Federal program. However,
                                    the review reports do not contain adequate documentation to identify the
                                    seriousness and impact of the deficiencies.

                                    Other FSIS review officials, however, expressed their need for more specific
                                    standards for making component decisions and assessing the importance of
                                    their findings for overall State conclusions. FSIS’ comprehensive review
                                    teams documented as part of an internal evaluation of the comprehensive
                                    review process that they lacked objective criteria for determining the status of
                                    State MPI programs. In an onsite report, for example, a lead FSIS review
                                    team official wrote that “[t]he review instrument [manual] 19 did not provide
                                    the reviewers a set of standards to use as a benchmark when assessing the
                                    components of the state program.” Later, the same official documented the
                                    question, “What findings should be considered significant?” After this
                                    evaluation, FSIS revised its review manual but did not address benchmarks.

                                    We acknowledge that the decision of whether a given State’s MPI program is
                                    “at least equal to” Federal laws and regulations is complex, and that all
                                    violations will not affect food safety equally. We contend, however, that
                                    FSIS should carefully explain and fully document how those violations affect
                                    its determination in its summary report.

                                    Inadequate Documentation of Reports

                                    Onsite review reports issued to eight States did not describe the extent and
                                    degree of noncompliances found at establishments or explain how FSIS
                                    arrived at its conclusions. FSIS’ manual states that “the nature, extent, and
                                    degree of the noncompliance are to be considered as part of the reviewer’s
                                    decision.” 20 We found that many inspected establishments failed to comply
                                    with HACCP requirements for recordkeeping and verification; however, the
                                    onsite reports did not describe the extent and degree of the deficiencies,
                                    including the number of occurrences. We attributed this to the fact that FSIS’
19
     FSIS Manual for State MPI Program Reviews, dated August 2003.
20
     FSIS Manual for State MPI Program Reviews, August 2003 & November 2004.

USDA/OIG-A/24005-1-AT                                                                                      Page 10
                   review manual gives the reviewer wide discretion regarding what should be
                   included in the report.
                   For example, a lead review official reported for the inspection component
                   that “Mississippi State officials failed to verify HACCP records and
                   determine the adequacy of corrective actions taken when a deviation occurs”;
                   however, the extent of this violation or the degree of its importance was not
                   included in the onsite report. This component was determined “at least equal
                   to” and no corrective action plan was required.

                   We concluded that FSIS should develop objective, uniform criteria to guide
                   officials as they determine whether State MPI programs are “at least equal
                   to” Federal laws and regulations. Officials should also be required to
                   document fully the nature, extent, and degree of any noncompliances.

Recommendation 3

                   Develop and implement formal standards to evaluate and document in the
                   agency’s summary reports the effect that establishment deficiencies have on
                   State MPI determinations.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        The formal standards for determining whether a State program
                        meets and enforces requirements “at least equal to” those
                        imposed under the * * * FMIA and the * * * PPIA are delineated
                        in nine review components in the FSIS Manual for State Meat
                        and Poultry Inspection Reviews, July 2005. Agency regulations
                        and directives set the specific evaluation criteria (formal
                        standards). During the onsite review, the review team verifies
                        each checklist item on the State program’s self-assessment
                        within each of the review components except Component 1,
                        Statutory Authority and Food Safety Regulations, which is fully
                        addressed in Part 1 (self-assessment) of the review methodology.

                        FSIS recognizes that documentation in the onsite review reports
                        needs to more clearly explain the reasoning for the overall
                        decisions regarding each State program’s “at least equal to”
                        status. FSIS has clarified documentation requirements for the
                        onsite review in its most recent revision of the FSIS Manual for
                        State Meat and Poultry Inspection Reviews, which was issued on
                        August 11, 2006.

                   OIG Position. We accept management decision for this recommendation




USDA/OIG-A/24005-1-AT                                                                   Page 11
Recommendation 4

                   Require review officials to document the nature, extent, and degree of
                   noncompliance(s) in onsite review reports supporting component and overall
                   decisions.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS will clarify documentation requirements for the onsite
                        review in its next revision of the FSIS Manual for State Meat and
                        Poultry Inspection Reviews, which is currently underway. All
                        noncompliance documentation will clearly state sufficient detail
                        of the nature, extent, and degree of the finding and how it relates
                        to the overall food safety system within the establishment.
                        Additionally, this documentation will provide sufficient support
                        for the overall determination of the State’s performance and
                        ability to carry out a meat and poultry inspection program “at
                        least equal to” the Federal program.

                   OIG Position. We accept management decision for this recommendation.




Finding 3          FSIS Should More Effectively Review Staffing Requirements,
                   Performance, and Laboratory Quality Assurance

                   FSIS’ comprehensive reviews did not effectively address staffing and
                   laboratory quality assurance for State MPI programs. Specifically, FSIS did
                   not (1) adequately analyze State staffing levels, (2) determine whether one of
                   two States visited had fully implemented systems to evaluate employee
                   performance, and (3) assess quality assurance of laboratories used by State
                   MPI programs. FSIS gathers data regarding staffing in State inspected
                   establishments, but it does not have a viable method to analyze the size of
                   State MPI program staffing and adequate criteria to determine the levels of
                   staffing that would be appropriate. Although FSIS has a viable method for
                   determining staffing needs for its Federal inspection program, it has not
                   applied that method to State inspection programs. FSIS also eliminated
                   quality assurance verification of laboratories because FSIS officials said it
                   was outside of the scope of the FMIA and PPIA. However, since pathogen
                   reduction is an integral part of FSIS’ own inspection program, we do not
                   believe that any State program can be considered “at least equal to” Federal
                   laws and regulations without taking this vital component into account. As a
                   result, FSIS has little assurance that State MPI programs are appropriately
                   staffed for program operations, or that laboratories used for product sampling
                   yield accurate, reliable, and reproducible results.

USDA/OIG-A/24005-1-AT                                                                     Page 12
                                       When performing its comprehensive reviews of State MPI programs, FSIS is
                                       required by the review manual to evaluate how these programs are staffed in
                                       order to verify whether the State’s workforce is adequate. In order for State
                                       programs to be “at least equal to” Federal laws and regulations, the State
                                       program should ensure that it has a sufficient number of trained veterinarians,
                                       inspectors, and enforcement staff to properly handle the inspection and
                                       regulatory duties of the program. 21 Program personnel must also receive the
                                       professional, technical inspection, and managerial training necessary to
                                       maintain their competence and work effectively. Finally, to be truly equal to
                                       Federal testing standards, State MPI programs need to have a verification
                                       program, including laboratory testing, to address adulterants, pathogens, and
                                       other testing requirements of properly operating food safety systems for meat
                                       and poultry. 22 Though these laboratories are not required to be accredited,
                                       nevertheless, they must produce accurate, reliable, and reproducible results. 23

                                       FSIS Should Improve Its Review of Staffing Requirements

                                       Although FSIS routinely collects numerical data regarding the number and
                                       type of State employees and the number of State-inspected establishments,
                                       the agency does not adequately analyze this data to determine if staffing
                                       levels are appropriate for carrying out State inspection activities. Unless FSIS
                                       analyzes the numerical data it collects to determine if staffing levels are
                                       appropriate, it will not be adequately assessing State MPI staffing resources
                                       as required by its own directives.

                                       We believe it is important that a detailed and meaningful analysis of State
                                       MPI programs’ staffing be conducted as part of FSIS’ comprehensive
                                       reviews, as we found evidence that State programs may not always have the
                                       number of personnel needed. During the comprehensive review of the
                                       Minnesota MPI program, for example, an FSIS review official documented in
                                       the review report that it was not clear if an inspector is assigned to every
                                       “further processing” facility 24 each day of operation. Minnesota MPI officials
                                       responded that an inspector is assigned to every establishment that does
                                       “further processing” on each day they are scheduled to operate. However,
                                       Minnesota’s own program guidelines for inspector staffing recognized that
                                       the State could not provide short-term coverage for establishments whose
                                       assigned inspectors were absent due to vacation, illness, or other changes in
                                       establishments’ processing schedules. 25 FSIS conducted a followup onsite
                                       review of Minnesota during August 2005.


21
   FSIS Directive 5720.2, revision 3, dated November 16, 2004.
22
   FSIS Manual for State MPI Program Reviews, dated November 2004.
23
   FSIS Directive 5720.2, revision 3, dated November 16, 2004.
24
   A “further processing” facility is an official establishment that smokes, cooks, cans, cures, refines, or renders products previously prepared in another
official establishment.
25
   Minnesota State MPI Program Guidelines for Inspector Staffing, December 2004.

USDA/OIG-A/24005-1-AT                                                                                                                              Page 13
                                       As a part of its comprehensive review, FSIS should determine that State MPI
                                       programs are properly staffed. A senior FSIS official agreed that his
                                       organization needs better standards to evaluate how State MPI programs
                                       allocate their staff. However, we found that lead review officials did not
                                       know how to evaluate this aspect of MPI programs. One official told us he
                                       would not even know how to determine the appropriate size of an inspection
                                       program. He added that FSIS does not use a benchmark to determine if the
                                       State has adequate staffing. Instead, FSIS looks at whether a State has
                                       inspectors assigned to the inspected plants daily, and whether required
                                       inspection activities are being appropriately conducted. We concluded that
                                       this approach is inadequate because it emphasizes whether there are enough
                                       inspectors to perform inspections but not whether there might be too many.
                                       Senior officials later agreed that FSIS needs criteria for staffing decisions, as
                                       well as procedures for applying those criteria as part of its comprehensive
                                       reviews.

                                       In contrast with these State reviews, FSIS’ Federal inspection program
                                       currently uses an analytical tool—the Method of Assigning Work—to
                                       validate its staffing needs based on forecasts of industry demand and
                                       projected changes in its workforce. Developed, in part, in response to a
                                       2001 OIG audit, 26 this tool has helped FSIS estimate staffing needs of the
                                       Federal inspection program. FSIS should determine if this method of
                                       assigning work can be adapted to evaluate the staffing resources at State MPI
                                       programs.

                                       FSIS Should Improve its Review of State Systems for Evaluating Staff
                                       Performance

                                       Our review also disclosed that, in Missouri, FSIS review staff did not
                                       determine whether the State’s MPI program had fully implemented an
                                       adequate system for evaluating—and when necessary, correcting—employee
                                       performance. During FSIS’ October 2003 onsite comprehensive review, FSIS
                                       review staff determined that although Missouri’s MPI program had a viable
                                       performance system in place, its senior management chose not to implement
                                       formal appraisals for the inspectors, supervisors, and compliance officers
                                       assigned to the MPI program because they believed such evaluations were
                                       useless. The review staff reported that supervisors had not documented their
                                       routine oversight of inspectors, and that they had not documented evaluations
                                       of inspection personnel placed on probation.

                                       On January 16, 2004, the director of the Missouri MPI program submitted to
                                       FSIS a corrective action plan addressing these deficiencies. The director
                                       stated that during all reviews the inspectors’ performance is evaluated and
                                       that, if necessary, they are given a letter of instruction. On March 18, 2004, in

26
     OIG Audit Report No. 24-601-FM, April 2001, “Review of FSIS Inspector Staffing Shortages and Anti-Deficiency Act Violations.”

USDA/OIG-A/24005-1-AT                                                                                                                Page 14
                                         response to an inquiry by an FSIS review staff official, a Missouri official
                                         submitted blank copies of the Missouri Department of Agriculture’s
                                         employee performance review forms. The purpose of this documentation was
                                         to demonstrate that the Missouri MPI program was operating a State-directed
                                         employee performance system according to a State handbook that requires
                                         performance appraisals be documented. 27 FSIS accepted these blank forms as
                                         sufficient evidence, and changed Missouri’s finding on the staffing
                                         component of the comprehensive review from “deferred” to “at least equal
                                         to,” even though these blank forms did not necessarily demonstrate that the
                                         Missouri State MPI was “at least equal to” Federal laws and regulations.

                                         During our June 2005 visit to Missouri, we inquired with senior State
                                         officials about whether or not performance appraisals were conducted for
                                         inspectors, supervisors, and compliance officers. The official stated that
                                         performance appraisals are not used to evaluate State MPI program staff
                                         because management felt that such evaluations are useless. We later asked an
                                         FSIS official what was done to validate Missouri’s corrective actions. The
                                         official stated that the staffing component was merely a “records review” and
                                         that based only on the evidence of the blank forms, FSIS assumed a
                                         performance management system was in place and operating as intended. The
                                         FSIS official declined to review actual records, stating that they were too
                                         personal.

                                         We concluded that such “record reviews” are not adequate to ensure that
                                         State MPI programs have a viable employee management performance
                                         system in place. FSIS should strengthen this part of its comprehensive review
                                         in order to make certain that State MPI programs fully comply with its
                                         requirements.

                                         FSIS Did Not Verify Quality Assurance Standards at Laboratories

                                         Although FSIS’ comprehensive review process for the State MPI program
                                         specifies that States should use qualified laboratory services, 28 our review
                                         disclosed that FSIS does not verify laboratory quality systems. FSIS’ initial
                                         reviews of State MPI programs conducted during October/November 2003
                                         did include quality management systems reviews; however, the agency
                                         eliminated this process by the second round of reviews conducted
                                         January 2005. An FSIS official informed us that the agency decided to
                                         eliminate the process because it was outside the scope of FMIA and PPIA.
                                         However, since pathogen reduction is an integral part of FSIS’ own
                                         inspection program, we do not believe that any State program can be
                                         considered “at least equal to” Federal inspection without taking this vital
                                         component into account.

27
     Missouri Department of Agriculture, Employee Information Handbook, section II, “Conditions of Employment.”
28
     Laboratory services qualified to accurately find and identify organisms, substances, and other conditions of regulatory and public health concerns.

USDA/OIG-A/24005-1-AT                                                                                                                             Page 15
                   As part of ensuring the safety of food products, meat-processing
                   establishments and inspectors sample products and send them to laboratories
                   for testing. Although regulations do not require that the laboratories used by
                   State MPI staff be accredited, FSIS’ Directive 5720.2 (revision 3) provides
                   that laboratories conducting official analyses for State inspection programs
                   produce accurate, reliable, and reproducible results. Current review manual
                   requirements provide that State programs need not be accredited, but are
                   expected to operate in accordance with those requirements; therefore, we
                   maintain that it is important for FSIS to review and confirm the quality
                   systems standards of laboratories used by State MPI programs.

                   FSIS should take steps to strengthen the staffing component of its
                   comprehensive review process, as well as to verify that the laboratories used
                   by States meet the same quality assurance standards as those required of
                   FSIS’ Federal programs.

Recommendation 5

                   Determine if the Federal method of assigning work can be adapted to
                   evaluate the staffing needs of State MPI programs. If so, incorporate this tool
                   into the staffing component of comprehensive MPI reviews; if not, develop
                   and implement independent procedures to adequately analyze staffing
                   requirements submitted by State MPI programs.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        The “Method of Assigning Work” tool is now being assessed to
                        determine if it can be provided to each of the State meat and
                        poultry inspection programs to assist in the evaluation of their
                        staffing needs to determine if the State has an adequate number
                        of inspectors to provide a level of inspection coverage that is “at
                        least equal to” that provided by FSIS. During the current project
                        of revising the FSIS Manual for State Meat and Poultry
                        Inspection Reviews, additional language/guidelines will be added
                        to the staffing component to reflect that the “Method of
                        Assigning Work” is one of the tools that States may use in
                        analyzing staffing requirements.

                        In addition, FSIS will continue to assess a State program’s
                        staffing by examining the State’s production volume and staff
                        equivalence data and confirming during onsite reviews that the
                        level of inspection coverage and the knowledge and skills of
                        inspection personnel are adequate to ensure safe, wholesome,
                        and properly marked and labeled products.



USDA/OIG-A/24005-1-AT                                                                     Page 16
                   OIG Position. We agree with FSIS in providing the “Method of Assigning
                   Work,” to State MPI programs for use in analyzing staffing requirements.
                   However, FSIS’ response does not address whether the agency can adapt the
                   “Method of Assigning Work” or alternative independent procedures to
                   evaluate staffing as part of the comprehensive review process. To reach
                   management decision, FSIS should provide us with specific details of its plan
                   to implement the “Method of Assigning Work” or alternative independent
                   procedures to assist in the evaluation of State MPI program staffing.

Recommendation 6

                   Instruct Missouri MPI management to perform and document periodic
                   evaluations of inspection staff. FSIS should perform a followup review to
                   validate Missouri’s implementation of its employee performance system.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        State of Missouri inspection officials have provided information
                        that they have implemented a performance review system based
                        upon FSIS Directive 4330.3, In-Plant Performance System
                        Reviews [IPPS] (6/17/02). Using this system, Missouri’s
                        frontline supervisors periodically visit each establishment and
                        conduct an assessment of individual aspects of the food safety
                        systems within the establishment. Any performance weaknesses
                        of assigned inspectors are documented using the IPPS review
                        form.

                        Missouri’s self-assessment submission in the fall of 2006 will be
                        required to address the employee performance system and our
                        thorough review will determine if it is “at least equal to.” This
                        aspect of Missouri’s program will also be reviewed during the
                        next onsite review.

                   OIG Position. Documentation provided to us did not adequately support
                   individual performance evaluations of Missouri State MPI program officials,
                   but rather that of the establishments inspected. To reach management
                   decision, FSIS should provide us with documentation of FSIS’ review of
                   Missouri’s fall 2006, self-assessment to support that Missouri’s State MPI
                   program perform periodic evaluations of individual inspection staff.

Recommendation 7

                   Develop and implement procedures for determining whether State MPI
                   programs have fully implemented employee performance systems.



USDA/OIG-A/24005-1-AT                                                                   Page 17
                   Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS will determine if State programs have implemented FSIS
                        Directive 4330.3, * * *[IPPS] (6/17/02), or a similar system to
                        document employee performance. As part of the review process,
                        FSIS will determine if persons performing meat and poultry
                        inspection and/or enforcement duties for the States have the
                        knowledge, skills, and abilities to carry out a meat and poultry
                        inspection program “at least equal to” the Federal program.

                   OIG Position. FSIS’ response addresses our recommendation, however,
                   IPPS documentation provided to us regarding the Missouri State MPI
                   Program did not adequately demonstrate individual performance evaluations
                   of program officials, but rather that of establishments inspected. To reach
                   management decision, FSIS needs to provide us with details of what reviews
                   will be conducted of the IPPS or any other system to determine whether State
                   MPI programs implemented employee performance systems.

Recommendation 8

                   Develop and implement procedures to verify that laboratories conducting
                   analyses for State MPI programs produce accurate, reliable, and reproducible
                   results.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS agrees that laboratories conducting analyses for State MPI
                        programs should produce accurate, reliable, and reproducible
                        results. However, current laws and regulations governing State
                        programs do not set requirements for laboratories. States are
                        responsible to determine that their results are reliable and valid
                        enough to stand in a court of law. FSIS provides guidance to
                        State programs and formal checklists in the review manual
                        appendices on good laboratory quality assurance practices. FSIS
                        reviews each State’s verification testing program and laboratory
                        capacity to ensure that mandatory analyses are conducted to
                        prevent pathogenic bacteria and violative residues in products.

                   OIG Position. FSIS’ response does not completely address our
                   recommendation. Although FSIS reviews each State’s verification testing
                   program and laboratory capacity to ensure that mandatory analyses are
                   conducted to prevent pathogenic bacteria and violative residues in products,
                   we concluded the agency needs a method to ensure that laboratories used by




USDA/OIG-A/24005-1-AT                                                                    Page 18
                   State MPI programs have good laboratory quality assurance practices. To
                   reach management decision, FSIS should develop and implement procedures
                   to verify that laboratories conducting analyses for State MPI programs
                   produce accurate, reliable, and reproducible results, along with the timeframe
                   for completion.




USDA/OIG-A/24005-1-AT                                                                   Page 19
Section 2 – Financial Reviews Were Not Always Timely

                                        FSIS Directive 3300.1 states that the agency “conducts periodic onsite fiscal
                                        reviews of each State’s cooperative MPI program (presently once every
                                        3 years). The reviews determine the sufficiency of the financial systems,
                                        records, reports, and procedures used to account for the cooperative
                                        inspection program’s expenditures.” The reviews are also part of the
                                        comprehensive review process.

                                        We identified three problems with FSIS’ fiscal oversight of State MPI
                                        programs. Although the agency conducts fiscal review of State MPI programs
                                        every 3 years, we found that four programs were overdue for this review. In
                                        order to make sure that new programs are functioning as designed, FSIS also
                                        reviews new MPI programs after their first year of operation, but we found
                                        that two States—North Dakota and Maine—had not been reviewed as
                                        scheduled.

                                        In addition, FSIS did not timely implement its yearend grant closeout
                                        procedures to ensure that State MPI programs promptly returned excess
                                        Federal funds. FSIS thus permitted Texas to not comply with the Cash
                                        Management Improvement Act (CMIA), exercise improper stewardship of
                                        Federal resources, and cause the U.S. Treasury unnecessary interest costs of
                                        approximately $100,000.




Finding 4                               FSIS Did Not Timely Perform Fiscal Reviews of State MPI
                                        Programs

                                        FSIS did not complete its fiscal reviews of State MPI programs in a timely
                                        manner—MPI programs in four States had not been reviewed in more than
                                        4 years, and new MPI programs in two other States had not been reviewed
                                        after their first year of operation. FSIS officials stated that their fiscal reviews
                                        were delayed due to personnel shortages over the last 3 years. Unless these
                                        reviews are performed in a timely manner, FSIS will not have reasonable
                                        assurance that costs claimed are allowable and properly accounted for, and
                                        that internal control mechanisms comply with Federal guidelines.

                                        FSIS has assigned the responsibility for performing periodic fiscal reviews to
                                        the Financial Review and Accountability Branch (FRAB), a unit of the
                                        Financial Management Division (FMD). 29 FRAB conducts periodic onsite
                                        fiscal reviews of each State’s MPI program (once every 3 years). These
                                        reviews determine the sufficiency of the financial systems, as well as the
                                        records, reports, and procedures used to document the inspection program’s
29
     FSIS Directive 3300.1, revision 2, dated March 5, 2004.

USDA/OIG-A/24005-1-AT                                                                                              Page 20
                                        expenditures. The purpose of these fiscal reviews is to verify that costs
                                        claimed by the State program are allowable and properly accounted for and
                                        that appropriate internal control mechanisms comply with Federal guidelines.
                                        As a way of ensuring that new programs are functioning as expected, FSIS
                                        also conducts onsite fiscal reviews of new State MPI programs after their first
                                        year of operation.

                                        Fiscal Reviews of State MPI Programs Backlogged

                                        According to FRAB’s FY 2005 schedule of onsite fiscal reviews, FRAB staff
                                        was scheduled to conduct onsite fiscal reviews at 14 State MPI programs.
                                        The schedule also disclosed the number of fiscal years of grant operations to
                                        be reviewed during the upcoming onsite review. We noticed that the fiscal
                                        year review coverage for 4 of the 14 States was in excess of 3 years. A FRAB
                                        official confirmed that onsite reviews for four states were overdue (see table
                                        2 below).


                                                                               Table 2
                                                                  FSIS State MPI Inspection Program
                                                                       Overdue Fiscal Reviews 30

                                                          State            Last Onsite Review   Fiscal Years to be
                                                                                                     Covered
                                                      Indiana                     1999              2000-2004
                                                     Minnesota                    1999              2000-2004
                                                    South Dakota                  2000              2001-2004
                                                      Vermont                     1999              2000-2004


                                        FMD management officials, when asked to describe how this backlog in
                                        regularly scheduled triennial fiscal reviews developed, stated that during the
                                        last few fiscal years, FRAB has experienced some staffing shortages resulting
                                        in onsite reviews being delayed. According to these officials, during
                                        FY 2006, additional onsite fiscal reviews would be scheduled to eliminate the
                                        backlog.

                                        In order to ensure that these programs are in compliance with Federal
                                        requirements, 31 FRAB should take all necessary steps to reduce its backlog
                                        and perform future fiscal reviews promptly.




30
     As of January 31, 2005.
31
     FSIS Directive 3300.1, revision 2, dated March 5, 2004.

USDA/OIG-A/24005-1-AT                                                                                         Page 21
                                     New State MPI Programs Not Reviewed After First Year’s Operation

                                     In addition to creating a backlog of regularly scheduled triennial onsite fiscal
                                     reviews, FRAB has been unable to maintain its policy of reviewing new State
                                     MPI programs after the conclusion of their initial year of grant operations.
                                     Since October 1998 (FY 1999), four states have entered FSIS’ State MPI
                                     program—Minnesota, Missouri, North Dakota, and Maine. Of these four new
                                     programs, FRAB completed its initial review of two programs on time. In
                                     contrast, North Dakota 32 was reviewed 2 years later than expected. Maine’s
                                     program was also not been reviewed on time, although a FRAB official
                                     indicated that it intends to conduct the onsite fiscal review during FY 2006
                                     (see table 3).


                                                                                          Table 3
                                                                     FSIS State MPI Program,
                                                               New State Programs, and Fiscal Reviews

                                                                       FY                              Initial Onsite Review
                                            State                 Program Began                       Date           FYs Covered
                                          Minnesota                  FY 1999                        Aug 2000             1999
                                          Missouri                   FY 2001                        May 2002             2001
                                         North Dakota                FY 2001                        Sep 2004           2001-2003
                                            Maine                    FY 2003                        Pending*
                                        *Scheduled for FY 2006



                                     These first-year fiscal reviews of new programs serve the important purpose
                                     of identifying and mitigating problems that may arise in a newly established
                                     MPI program. For example, FRAB’s initial review of Minnesota’s
                                     program—completed on time—found that the State during its first year of
                                     operation had not adjusted State fiscal year costs (July 1 to June 30) to those
                                     of the Federal fiscal year (October 1 to September 30). Similarly, FRAB’s
                                     initial review of the Missouri program—also completed on time—disclosed a
                                     number of internal control problems, related to the financial aspect of the
                                     program, that were later corrected. When performed in a timely fashion,
                                     FRAB’s first-year fiscal reviews are a useful control for preventing serious
                                     problems from developing in new State MPI programs.

                                     We concluded that action should be taken to ensure the timeliness of fiscal
                                     reviews of State MPI programs, including both the regularly scheduled
                                     triennial reviews of program fiscal operations and the first-year reviews of
                                     new programs.
32
   FSIS’ review of North Dakota found that they were operating in compliance with the “equal to” provisions relating to funding and financial
accountability.

USDA/OIG-A/24005-1-AT                                                                                                                           Page 22
Recommendation 9

                   Implement a plan to eliminate the current backlog of onsite fiscal reviews,
                   including both regularly scheduled triennial fiscal reviews and first-year
                   reviews of new programs.

                   Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS has scheduled visits to Texas and Montana in July and
                        August which will eliminate the current backlog of onsite fiscal
                        reviews.

                   OIG Position. We accept management decision for this recommendation.




Finding 5          FSIS Should Strengthen Controls Over Grant Closeout
                   Procedures to Ensure That States Adhere to the Federal CMIA

                   FSIS did not timely implement its year end grant closeout procedures to
                   ensure that State MPI programs promptly returned excess Federal funds.
                   Although requirements existed to monitor matching expenditures and to limit
                   the Federal share to 50 percent, year-end grant reconciliations were not
                   performed as required and responsible officials failed to notice that the grants
                   had not been reconciled. As of October 2003, 11 of 28 States had overdrawn
                   the Federal share by a total of $731,160; of this amount Texas accounted for
                   $524,293 of the total overdrawn. Without performing these closeouts, FSIS
                   officials were unaware that the Texas and other State MPI programs were
                   holding Federal funds in excess of its program expenditures, and did not
                   demand the prompt repayment of those funds. By permitting Texas to hold
                   Federal funds longer than necessary—for as long as 43 months in once
                   instance—FSIS exercised improper stewardship of Federal resources, and
                   caused the U.S. Treasury unnecessary interest costs of approximately
                   $100,000.

                   FSIS has established in-house procedures requiring that year end grant
                   closeouts be performed as a desk-audit within FRAB. The in-house
                   procedures require a review of the SF 269A, Financial Status Report,
                   however, the desk procedures do not show steps that address whether States
                   had excess funds. FSIS Directive 3300.1 requires the prompt repayment of
                   any excess funds. FSIS also conducts onsite triennial fiscal reviews of State
                   MPI programs (see Finding 4).

                   Congress enacted the CMIA of 1990 to ensure efficiency, effectiveness, and
                   equity in transferring funds between the States and the Federal Government.

USDA/OIG-A/24005-1-AT                                                                     Page 23
                                      Each Federal assistance program 33 is required to operate according to the
                                      terms of CMIA and, depending on the size of the program, different CMIA
                                      rules apply. The CMIA requires States to minimize the time between the
                                      receipt and disbursement of Federal funds.

                                      We found that the Texas MPI Program has for several years been drawing
                                      down its full annual allocation of Federal funds, rather than drawing funds
                                      based on matching actual program expenditures as shown on its end-of-year
                                      reconciliation report 34 (see table 4 below). Because responsible officials did
                                      not perform year-end grant reconciliations as required, and management
                                      failed to notice that the grants had not been reconciled, Texas was allowed to
                                      accumulate a balance of excess unobligated Federal funds. The true extent of
                                      those cash balances were confirmed when the onsite triennial fiscal review
                                      was performed.


                                                                          Table 4
                                                    Texas MPI Program Excess Federal Funds 1997 to 2004
                                                        Federal Funds        Actual 50 percent  Actual Excess
                                                      Allocated To and       Federal Share of   Federal Funds
                                          FY         Withdrawn by Texas       MPI Expenses          Held
                                         1997                  $4,731,596            $4,678,657        $52,939
                                         1998                  $4,848,545            $4,675,945        172,600
                                         1999                  $5,622,000            $5,323,247        298,753
                                         2000                  $5,010,400            $4,770,411        239,989
                                         2001                  $4,885,100            $4,647,013        238,087
                                         2002                  $5,078,900            $4,842,686        236,214
                                         2004                  $4,495,899            $4,235,698        260,201
                                         Total                                                      $1,498,783
                                         Note: 2003 omitted since it was not overdrawn



                                      When a State violates federally regulated cash management procedures, (by
                                      drawing Federal funds in advance or in excess of its program’s operating
                                      immediate needs), the U.S. Treasury suffers a loss. We estimate that, had
                                      interest been charged to the State Texas Department of Health for the
                                      $1,498,783 it overdrew between FY 1997 and FY 2004, that cost would have
                                      been approximately $100,000 through June 30, 2005. 35 Instead the U.S.
                                      Treasury bore this additional expense.

                                      Since 1997, FSIS has only recovered these excess funds when it conducts its
                                      onsite triennial fiscal review of the Texas MPI program. Upon FSIS’
33
   Those listed in the Catalog of Federal Domestic Assistance. Number 10.475, “Cooperative Agreements with States for Intrastate MPI.”
34
   Standard Form 269A, Financial Status Report.
35
   Interest costs calculation = (average daily balance) x (CMIA-provided daily interest rate) x (number of days funds withheld by Texas). Interest rate is
the average of the13-week U.S. Treasury Bill equivalent yield.

USDA/OIG-A/24005-1-AT                                                                                                                           Page 24
                    reconciliation of actual expenditures, the three annual grants are closed and if
                    excess funds are identified, FSIS bills the State only the amount overdrawn—
                    without interest. For example, the $52,939 of excess funds withdrawn by
                    Texas in October 1997 was ultimately refunded interest-free to FSIS
                    43 months later, on May 11, 2001. Waiting 3 years effectively increases the
                    cost to the U.S. Treasury; an expense that is avoidable since a provision in
                    FSIS’ fiscal guidelines requires the prompt return of funds in excess of State
                    programs’ needs, thus sparing the U.S. Treasury this added cost.

                    FSIS has been aware of this problem since 2001, when it required Texas to
                    repay excessive funds withheld in FYs 1997 through 1999. By August 2003,
                    Texas had repaid FSIS $1,238,580 of excess MPI program funds and notified
                    FSIS that they had revised their procedures “to ensure that [F]ederal funds
                    are drawn down appropriately in the future.” Nevertheless, on
                    August 18, 2005, seven months after the FSIS-established year end grant
                    closeout deadline, we learned the Texas MPI program had withdrawn excess
                    funds for FY 2004 totaling $260,201.

                    Given the ongoing nature of this problem, we conclude that FSIS needs to
                    implement more rigorous control over its year end grant closeout process to
                    ensure that State MPI programs do not drawdown excessive sums and, more
                    generally, comply with the terms of CMIA, exercise proper stewardship of
                    Federal resources, and conserve Federal funds.

Recommendation 10

                    Implement management controls to consistently and timely perform yearend
                    grant closeouts of all State MPI programs, and seek annual recovery of
                    excess Federal funds held by State MPI programs.

                    Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS will develop a business process with management controls
                        in the form of Standard Operating Procedures (SOPs). The SOPs
                        are projected to be completed by October 31, 2006, and will
                        incorporate a shift in current policy and practices. The SOPs will
                        prescribe the means by which FSIS will review the Financial
                        Status Reports from the States on an annual basis and make
                        disbursements or request excess funds as necessary. FSIS will
                        implement the new process for the yearend grant closeout of
                        FY 2006 with a target completion of July 2007. In addition, FSIS
                        will make any additional refunds or collections during the 3-year
                        comprehensive review.

                    OIG Position. We accept management decision for this recommendation.

USDA/OIG-A/24005-1-AT                                                                      Page 25
Recommendation 11

                    Seek immediate recovery of the $260,201 in excess Federal funds for
                    FY 2004 currently held by the Texas MPI program.

                    Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS successfully completed a comprehensive onsite review of
                        the Texas MPI program in July 2006 that covered * * *
                        FYs 2003, 2004 & 2005. The final report will be completed by
                        September 15, 2006, and the agency will initiate the process to
                        recover any excess grant funds by September 30, 2006.

                    OIG Position. We agree with FSIS’ response to this recommendation. To
                    reach management decision, FSIS should provide documentation to support
                    that excess funds have been requested.

Recommendation 12

                    Monitor the yearend grant closeout of the 2005 Texas MPI program. If grant
                    funds are held in excess of program needs, recover the excess funds.

                    Agency Response. FSIS advised in its August 22, 2006, response:

                        FSIS successfully completed a comprehensive onsite review of
                        the Texas MPI program in July 2006 that covered * * *
                        FYs 2003, 2004 & 2005. The final report will be completed by
                        September 15, 2006, and the agency will initiate the process to
                        recover any excess grant funds by September 30, 2006.

                    OIG Position. We agree with FSIS’ response to this recommendation. To
                    reach management decision, FSIS should provide a copy of the final report
                    along with evidence to support the recovery of excess funds, if any.




USDA/OIG-A/24005-1-AT                                                                 Page 26
Scope and Methodology
                                      Our review focused on the effectiveness of FSIS’ management controls and
                                      procedures to ensure that State MPI programs were “at least equal to” Federal
                                      inspection programs mandated by FMIA and PPIA. We performed fieldwork
                                      at FSIS National Office located in Washington, D.C., and the Office of
                                      Program Evaluation, Enforcement and Review located in Omaha, Nebraska.

                                      Currently there are 28 States that administer MPI programs. We judgmentally
                                      selected and performed onsite reviews of State MPI program operations for
                                      the States of Mississippi and Missouri, two of the four States in which FSIS
                                      had completed comprehensive reviews. Mississippi was selected because it
                                      received a finding of “at least equal to” as a result of FSIS’ comprehensive
                                      review. Missouri was selected because it received an initial determination of
                                      “does not support at least equal to” Federal laws and regulations for its
                                      overall State determination based on FSIS’ onsite comprehensive review. Our
                                      review was limited to review of documentation and discussion regarding
                                      FSIS’ comprehensive review process and State management controls of MPI
                                      program operations. We also visited one State-inspected establishment in
                                      each State to observe inspection operations. The establishments visited were
                                      judgmentally selected by State MPI program officials based on slaughter
                                      and/or processing activities conducted the day of the visit. We visited the
                                      establishments to obtain an understanding of program components related to
                                      humane handling of animals, inspection, and product sampling aspects of
                                      State MPI program operations.

                                      We reviewed FSIS’ FY 2005 management controls over the State MPI
                                      programs; however, older transactions were reviewed when deemed
                                      necessary. The fieldwork was performed from January 2005 to October 2005.
                                      Our review was performed in accordance with generally accepted
                                      government auditing standards. 36

                                      To accomplish the review objectives, we also performed the following:

                                      •    Reviewed and analyzed documentation pertaining to State MPI laws,
                                           regulations, policies, and procedures.

                                      •    Reviewed and analyzed self-assessments and onsite reviews performed
                                           by the review staff of MPI programs for Kansas, Mississippi, Missouri,
                                           Wisconsin, Delaware, Minnesota, North Dakota, and Ohio.




36
     Government Auditing Standards, 2003 revision, GAO.

USDA/OIG-A/24005-1-AT                                                                                      Page 27
                   •    Reviewed and analyzed documentation pertaining to MPI staffing,
                        training, consumer safety, compliance activities, and funding and
                        financial accountability.

                   •    Interviewed FSIS officials from the State Program Liaison Staff; Office
                        of Program Evaluation, Enforcement, and Review; Financial Review and
                        Analysis Branch; and Office of Policy, Program, and Employee
                        Development.

                   •    Interviewed State MPI officials regarding FSIS’ comprehensive review
                        process and State MPI program operations.

                   •    Reviewed and analyzed States of Mississippi             and   Missouri
                        documentation supporting State MPI operations.




USDA/OIG-A/24005-1-AT                                                                  Page 28
Exhibit A – Summary of Monetary Results
                                                                                                          Exhibit A – Page 1 of 1



 Finding         Recommendation
   No.                No.                      Description               Amount                   Category
                                               Overdraw of                                   Questioned Costs –
       5                   11                  Grant Funds               $260,201          Recovery Recommended
                                               Overdraw of                                  Questioned Costs – No
       5                 N/A1                  Grant Funds             $1,238,582          Recovery Recommended
                                                                                           FTBPTBU: Management
                                                                                                  Operating
       5                 N/A2                  Interest Costs            100,000              Improve/Savings
1
    Overdrawn grant funds not included in recommendation because Texas MPI program repaid FSIS excess funds.
2
  Interest costs of $100,000 not included in a recommendation because the Texas MPI program is not a “major program” under
the terms of the CMIA and therefore are not subject to interest liability.




USDA/OIG-A/24005-1-AT                                                                                                   Page 29
Exhibit B – Locations Visited
                                                                              Exhibit B – Page 1 of 1

FSIS National Office - Washington, D.C.

FSIS Office of Program Evaluation, Enforcement and Review - Omaha, Nebraska

Mississippi Department of Agriculture - Jackson, Mississippi

Missouri Department of Agriculture - Jefferson City, Missouri

Establishment A

Establishment B




USDA/OIG-A/24005-1-AT                                                                      Page 30
Exhibit C – Categories/Criteria Designating Frequency of FSIS Comprehensive
                                      Review
                                                                                       Exhibit C - Page 1 of 2

The categories designated the frequency of recurring comprehensive reviews based on the condition of
the State program. 37

Category 1

Acceptable (at least every 5 years). All required items are in compliance with the Acts, Regulations
and State Performance Plans (SPP).

Category 2

Acceptable with minor variations (at least every 4 years).

        a. Variations found during reviews were considered minor and do not affect public health.

        b. Possibility that adulterated or misbranded product could enter human food channels is minimal.

        c. Procedures in SPP are being followed and updates are being sent to FSIS officials.

        d. Corrective actions taken by State officials were adequate to assure program maintenance in full
           compliance with the Acts and Regulations.

 Category 3

Acceptable with significant variations (at least every 3 years).

        a. Variations found during reviews were considered significant and may affect public health but
           were corrected immediately.

        b. Possibility that adulterated or misbranded product can enter the human food channels is
           minimal.

        c. Procedures in SPP are being followed, but effectiveness is in question.

        d. Major procedures in the SPP have been changed but updates have not been sent to FSIS
           officials as required.

        e. Actions taken by State officials are less then adequate to assure the program is maintained in
           compliance with the Acts and Regulations.




37
     FSIS Directive 5720.2, revision 2, dated July 24, 1992.

USDA/OIG-A/24005-1-AT                                                                               Page 31
Exhibit C –            Categories/Criteria Designating Frequency of FSIS Comprehensive
                       Review
                                                                           Exhibit C – Page 2 of 2

Category 4

Unacceptable (frequency to be based on nature of findings).

   a. Variations found during reviews were considered significant and which may affect public
      health and were not corrected.

   b. Possibility that adulterated or misbranded product has entered or can enter human food
      channels.

   c. Procedures in SPP are not being followed, or procedures are being followed but are not
      effective.




USDA/OIG-A/24005-1-AT                                                                   Page 32
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 6
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 6
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 6
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 6
Exhibit D – Agency Response
                              Exhibit D – Page 5 of 6
Exhibit D – Agency Response
                              Exhibit D – Page 6 of 6
